          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report
 Follow-Up Audit of the National
 Nuclear Security Administration's
 Implementation of the 2003
 Design Basis Threat Policy




 OAS-M-07-04                    June 2007
                                 Department of Energy
                                     Washington, DC 2 0 5 8 5

                                      June 4 , 2007


MEMORANDUM FOR THE ASSOCIATE ADMINISTRATOR FOR DEFENSE


FROM:
                          ~r ;.yozi~R~y
                         G orge
                         Assistant Inspector General
                           for Performance Audits
                         Office of lnspector General

SUBJECT:                 INFORMATION: Audit Report on "Follow-Up Audit of the National
                         Nuclear Security Administration's Implementation of the 2003 Design
                         Basis Threat Policy"

BACKGROUND

The National Nuclear Security Administration has seven sites that possess Category I special
nuclear material (SNM), which requires the highest level of protection under the Department of
Energy's Design Basis Threat (DBT) policy. The DBT policy reflects the most credible threats to
Departmental assets and operations. In May 2003, the Department revised the DBT to reflect the
threat environment existing after the attacks of September 1 1,2001, including terrorism.
Changes to site protection programs to implement the 2003 DBT were to be completed by the
end of Fiscal Year (FY) 2006.

The current DBT policy was issued in November 2005 and further increased security
requirements for sites possessing Category 1 SNM. NNSA sites are in the process of making
additional changes to their security programs to meet the 2005 DBT requirements. A key
component of planning to meet changing security requirements is a process known as
vulnerability analysis that assesses site-specific conditions and forms the basis for selecting
upgrades.

In October 2005, we reported that the National Nuclear Security Administration did not have
sufficient time to fully integrate security planning and budgeting and to execute a coordinated
effort to identify and evaluate cost-effective permanent upgrades to meet the 2003 DBT
requirements. Additionally, NNSA did not have sufficient access to analytical tools to fully test
and evaluate the effectiveness of upgrades. As a result, IVIVSA did not have analytical
information to ensure that the upgrades selected would yield the greatest enhancements to site
security and be the most cost-effective alternatives. We initiated this audit to follow-up on
NNSA's implementation of the 2003 DBT.

RESULTS OF AUDIT

NNSA sites certified that they met the 2003 DBT policy by the end of FY 2006 as required by
the Department's policy. As part of policy implementation, NNSA Headquarters validated site
                                                2

by site security programs. Nothing came to our attention during this review to question whether
NNSA sites had met the 2003 DBT policy requirements.

Our review showed that sites used widely varying strategies to meet the goal. Three of the seven
sites used permanent upgrades to facilities and protective force capabilities to meet all
Departmental requirements by the established target date of September 30, 2006. Three
additional sites were able to meet the requirements through a combination of permanent and
interim measures. Interim measures included strategies such as repositioning protective forces
or temporarily suspending certain operations. The final site received approval to defer meeting a
portion of the requirements but met the remaining requirements by the target date.

Additionally, the Office of Defense Nuclear Security (Defense Nuclear Security) made
significant progress toward implementing recommendations we made in 2005 to improve its use
of NNSA's planning, programming, budgeting, and evaluation (PPBE) process.

                              Changes to Planning and Oversight

During this audit, we found that Defense Nuclear Security had implemented a number of
improvements to its planning and oversight functions. For example:

   •   Defense Nuclear Security established and staffed a formal Headquarters program
       structure to provide oversight of site activities, including implementation of the DBT
       policies, planning, budgeting, and program execution.

   •   Site security programs have begun participating in the PPBE process through preparation
       of Annual Operating Plans, which are approved by Defense Nuclear Security, including
       specific performance measures for each site.

   •   Defense Nuclear Security instituted a programming process that supports complex-wide
       balancing of security resources through the application of a risk management process.

   •   Finally, Defense Nuclear Security has begun holding annual budget reviews and
       quarterly security program reviews.

                      Actions to Support Implementation of the 2005 DBT

In addition, Defense Nuclear Security made other improvements to implement the 2005 DBT
policy as a result of its experience in working to meet the 2003 DBT. For example, the Defense
Nuclear Security:

   •   Established a single, complex-wide DBT project plan to manage site implementation of
       the requirements;

   •   Developed a risk management strategy for implementation of the 2005 DBT;

   •   Required sites to develop a series of options, including estimates of protection system
       effectiveness for each option;
                                                 3



   •   Used site analyses to determine how each site should address the requirements, with a
       goal of balancing risk and resources across the complex;

   •   Provided extra assistance to sites and Site Offices that lacked sufficient access to
       analytical tools and expertise in several technical safeguards and security areas; and,

   •   Provided support to sites to investigate new simulation tools that can provide better
       information than the current approved models.

Finally, Defense Nuclear Security established the Security Systems Engineering Team in FY
2005 that provided (a) a focal point for interaction with other federal agencies; (b) funding for
initial testing and deployment of security technologies that can reduce growth in manpower
requirements; and, (c) a vehicle for sharing information on technologies among sites.

We are not making any recommendations at this time. However, during this audit, we noted
opportunities for program improvements in the areas of technology use, protective force training,
and materials consolidation. We plan to report on each of these areas in separate reports in the
future. Since no formal recommendations are being made in this report, a formal response is not
required. We appreciate the cooperation of your staff throughout the audit.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
                                                                    Attachment

OBJECTIVE   The objective of our audit was to follow-up on NNSA's
            implementation of the 2003 DBT.

SCOPE       We performed the audit between October 2006 and May 2007 at
            NNSA Headquarters and the following sites: Nevada Test Site
            (Las Vegas, NV); Office of Secure Transportation (Albuquerque,
            NM); Pantex Plant (Amarillo, TX); Lawrence Livermore National
            Laboratory (Livermore, CA); Los Alamos National Laboratory
            (Los Alamos, NM); Sandia National Laboratories (Albuquerque,
            NM); and, Y-12 National Security Complex (Oak Ridge, TN).

            To accomplish the audit objective, we:

              • Interviewed Headquarters and site federal and contractor
                security officials;

              • Analyzed changes in Office of Defense Nuclear Security
                programmatic oversight, including planning, internal controls,
                and performance measurement;

              • Observed upgrades in technology and protective force
                weapons and equipment installed at the six sites;

              • Reviewed plans for future upgrades; and,

              • Observed demonstrations of security technologies being tested
                for future use at NNSA sites.

            In addition, we reviewed the following documentation:

              • Site plans for implementing the 2003 DBT;

              • Estimated and actual costs of implementation at each site;

              • Site Office and the Office of Secure Transportation validation
                activities;

              • Site DBT implementation quarterly progress reports;

              • NNSA's November 15, 2006, "2003 Design Basis Threat
                Implementation Report;" and,

              • Site Annual Operating Plans.
METHODOLOGY   The audit was conducted in accordance with generally accepted
              government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations
              to the extent necessary to satisfy the audit objective. Because our
              review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of our
              audit. During the audit, we assessed the Department's compliance
              with the Government Performance and Results Acts of 1993 and
              found that NNSA had performance measures associated with the
              audit objective. We did not rely extensively on computer-processed
              data to support our analyses and, therefore, we did not verify the
              validity of the automated data processing systems.

              We discussed the contents of this report with Policy and Internal
              Controls Management and Office of Defense Nuclear Security
              officials on March 29, 2007, and May 14, 2007, and they waived an
              exit conference.




                                 2
                                                                    IG Report No. OAS-M-07-04

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
